  Semiannual
     Report
to the Congress



 MARCH
   2000
    Office of Inspector General
    National Science Foundation
                              Cover Photographs and Credits




                                B                      D
                                                                             F                   H
          A                           C                    E
                                                                                  G
A       Sea urchin from the Pacific Coast of North America.
        Credit: Michigan State University
B       An agitator in a biochemical reactor.
        Credit: National Science Foundation
C       This image shows a portion of a prototype mass spectrometer developed and constructed in
        the laboratory of Professor Brian T. Chait at Rockefeller University. Today, this type of
        instrument is produced by several different commercial manufacturers and is widely used to
        analyze biopolymers such as peptides, proteins, oligosaccharides, and oligonucleic acids.
        Credit: Brian T. Chait, Rockefeller University
D       Jellyfish (Pegea Socia)
        Credit: Woods Hole Oceanographic Institution
E       One of the resonators from the Argonne Tandem Linear Accelerator System
        Credit: Argonne National Laboratory
F       A view of the Milky Way in the direction of its center. This image was taken at the Cerro
        Tololo Inter-American Observatory in Chili.
        Credit: National Optical Astronomy Observatory
G       A view of Kitt Peak Observatory, located near Tucson, Arizona.
        Credit: National Science Foundation
H       Viper Telescope at NSF’s Amundsen-Scott South Pole Station.
        Credit: Greg Griffin



        The March 2000 Semiannual Report (22) to the U.S. Congress was designed and edited by
Belinda M. Robinson, Writer/Editor, for NSF’s Office of Inspector General. Ms. Robinson is currently a Doctoral candi-
date at NOVA Southeastern’s School of Business and Entrepreneurship in Fort Lauderdale, Florida.




Printed on Recycled Paper
L etter
 to the Congress
 of the United States                                                                   March
                                                                                         2000
         This Semiannual Report to the Congress is my first as Inspector General of the
 National Science Foundation (NSF). The report describes the accomplishments of the
 Office of Inspector General (OIG) over the past 6 months. These results are achieved by
 employees dedicated to improving government by assuring efficiency and integrity in NSF’s
 portfolio of programs.

          As we enter the 21st century, NSF is celebrating its 50th year as a catalyst for scientific
 and engineering research, and for innovations in science education programs. NSF remains
 the sole federal agency to support basic research, and science and education programs through-
 out all levels. NSF seeks out and funds the best research ideas from a diverse, capable group
 of people to pursue discoveries and new knowledge. NSF also invests in major scientific
 research equipment. These state-of-the-art tools enable U.S. scientists and engineers to
 advance world-class research essential for new discoveries across the frontier of science and
 engineering.

        During this reporting period, we continued our work with NSF management to im-
 prove the efficiency and integrity of its programs. Highlights of this report include:

         Our audit of NSF’s agency-wide financial statements for FY 1999 conducted by
 KPMG resulted in an unqualified opinion, delivered 6 weeks ahead of the mandated
 March 1st reporting date. There were no material weaknesses and no material noncompli-
 ance. Issues involving property, plant, and equipment used in the U.S. Antarctic Program, as
 well as NSF’s data processing system and information system controls, are being addressed
 by NSF management.

         While performing an audit of a major NSF research project, we identified a need for
 the NSF to reconsider its policy for delegating authority for approving additional funding for
 large capital projects—specifically, given the size, importance and complexity of these projects.
 We suggested that NSF management reconsider how authority for additional funds on capi-
 tal project awards are handled.

         We continued to refine our outreach and liaison programs, which are becoming an
 effective means of receiving feedback and educating the scientific and engineering communi-
 ties about compliance and program responsibilities. We added an anonymous “800” tele-
 phone number to improve accessibility.
        We forwarded to the Deputy Director an investigation report recommending a
finding of misconduct in science against a postdoctoral researcher who admitted fabricat-
ing data generated under an NSF award. In three misconduct in science cases referred
previously, the Deputy Director made findings and took actions consistent with our recom-
mendations.

        An investigation revealed that a co-Principal Investigator (co-PI) falsified more
than a hundred travel receipts for reimbursement on foreign trips. The local county district
attorney charged the co-PI with Grand Theft by Embezzlement; the co-PI did not contest
the charge and was sentenced. Approximately $1.5 million was returned to NSF because
the project could not be completed.

        As the new Inspector General, I welcome the opportunity to work with the
National Science Board (NSB) and NSF management to identify areas for managerial and
operational improvement, helping NSF to remain one of the federal government’s most
cost-effective agencies. I will provide leadership to the Office of the Inspector General
(OIG), emphasizing prevention through outreach activities and enhanced communication
with NSF and its support recipients. The OIG will continue to work with NSF to under-
stand and advance its performance goals and measures, as required by the Government
Performance and Results Act (GPRA). As an independent assessor of NSF’s research and
education awardees and its management processes, the OIG is well positioned to assess
various aspects of NSF’s capabilities in managing its dynamic and diverse portfolio sup-
porting ideas, people, and tools. I look forward to facing the challenges of this office and
meeting the responsibilities required by the Inspector General Act.

                                       Respectfully submitted,



                                       Christine C. Boesz
                                       Inspector General
                                       March 31, 2000
A bout the
  Inspector General                                                          March
  Christine C. Boesz, Dr.P.H.                                                 2000




     T
           he Inspector General heads the Office of the Inspector General,
          and reports directly to the National Science Board and the Con-
          gress. The OIG recommends policies to promote economy, efficiency, and
     effectiveness in administering NSF programs and operations. It also aims to
     prevent and detect fraud, waste, and abuse; to improve the integrity of NSF
     programs and operations; and to investigate cases involving misconduct in sci-
     ence.

              Dr. Christine C. Boesz assumed her duties as Inspector General of the
     National Science Foundation on January 18, 2000. Prior to that, she served as
     Head, Regulatory Accountability, at Aetna U.S. Healthcare, a subsidiary of Aetna,
     Inc. In that position, Dr. Boesz was responsible for establishing and maintaining
     a compliance program for Medicare legislative and regulatory activities. She
     has also held several government compliance and oversight positions during an
     18-year career with the Health Care Financing Administration, including Direc-
     tor, Operations and Oversight, Office of Managed Care.

            Dr. Boesz received her Doctorate in Public Health from the University
     of Michigan School of Public Health (1997). Her M.S. in Statistics was awarded
     by Rutgers University (1967) and she received her B.A. in Mathematics from
     Douglass College (1966).
CONTENTS
           1
       Efficiency

          15
          15
        Integrity

          33
     Statistical Data

         45
        Glossary
ACRONYMS
AOR     Authorized Organizational Representative
CFO     Chief Financial Officer
CPA     Certified Public Accountant
COI     Conflict of Interests
COV     Committee of Visitors
CPO     Division of Contracts, Policy, and Oversight
DARPA   Defense Advanced Research Projects Agency
DIS     Division of Information Systems
DOD     Department of Defense
DOJ     Department of Justice
GPRA    Government Performance and Results Act
ISP     Internet Service Provider
NSB     National Science Board
OGC     Office of General Counsel
OPP     Office of Polar Programs
PI      Principal Investigator
PP&E    Property, Plant, and Equipment
SGER    Small Grants for Exploratory Research
SPSE    South Pole Safety and Environmental
SPSM    South Pole Station Modernization
STC     Science and Technology Center
USAP    United States Antarctic Program
REPORTING
REQUIREMENTS
Under the Inspector General Act, we report to the Congress every 6 months
     about what we have been doing. In particular, we must discuss:


Reports issued, significant problems identified, the value of
questioned costs and recommendations that funds be put to             1, 33
better use, and NSF’s decisions in response (or, if none, an
explanation of why and a desired timetable for such decisions)


Matters referred to prosecutors, and the resulting
prosecutions and convictions                                        15, 44
With regard to previously reported recommendations:
significant management decisions that were revised, and             42, 44
significant recommendations for which NSF has not
completed its response

Legislation and regulations that may affect the efficiency or
                                                                  None to Report
integrity of NSF’s programs
                                                                   This Period
Whether we disagree with any significant decision by NSF
                                                                 None to Report
management
                                                                  This Period
Any matter in which the agency unreasonably refused to
                                                                 None to Report
provide us with information or assistance
                                                                  This Period
           Efficiency
                                                                                           2000
                                                                             Highlights


                                                                      Reviews
        We review agency operations as well as grants,
                                                                      Involving Administration     22
contracts, and cooperative agreements funded by NSF.
                                                                      and Management
We conduct financial audits to determine whether
costs claimed by awardees are allowable, reasonable,
                                                                      Audits Involving Education
and properly allocated. Our audits also seek to iden-
                                                                      and Human Resources Awards 55
tify practices that may be modified so that funds can
be used for other purposes that taxpayers consider                                                 88
                                                                      Polar Programs
more important. We are responsible for auditing
NSF’s financial statements, including evaluations of
                                                                      Issues Involving
internal controls and data processing systems.                                                    10
                                                                                                  10
                                                                      Research Project Support
        We conduct multidisciplinary reviews of finan-
                                                                      Summary of Other
cial, administrative, and programmatic operations to
                                                                      Audits of NSF Awards        12
                                                                                                  12
identify problems as well as to highlight what works
well. These reviews are designed to assist managers
                                                                      Statistical Tables          33
                                                                                                  33
at NSF and funded organizations to improve opera-
tions and better achieve mutual research and educa-
tion goals.




  NSF                             Semiannual Report Number 22 · March 2000                       OIG
                                                         1
ISSUES INVOLVING
ADMINISTRATION and MANAGEMENT
NSF Receives Second Unqualified Audit Opinion on its Financial Statements

        In accordance with the Chief Financial Officers (CFO) and Government Management Reform Acts,
we completed our audit of NSF’s agency-wide financial statements for FY 1999. NSF received an unqualified
opinion on its balance sheet and related statements of net costs, changes in net position, budgeting resources,
and finances, for the second successive year. Further, in partnership with NSF management, we completed
our audit six weeks ahead of the mandated March 1st reporting date.

         Our tests of compliance with laws and regulations that could have a material effect on the financial
statements found no instances of noncompliance. However, our consideration of NSF’s internal controls again
identified one reportable condition concerning property, plant, and equipment (PP&E) managed by a contractor
and used in the U.S. Antarctic Program (USAP). NSF, through its contractor, maintains research facilities in
New Zealand and Antarctica where over 95 percent of NSF’s capital
assets reside. Our FY 1998 audit found that the USAP contractor’s
accounting system did not consistently value and classify the full costs of
buildings, construction in progress, and capital equipment. While our FY
1999 audit found that the Foundation and the contractor had taken action
to correct this weakness, the contractor’s accounting system did not                 NSF’s Second
accurately record equipment additions in the year-end equipment account
balances reported to NSF. NSF recently selected a new contractor for
                                                                                      Unqualified
the USAP, and NSF is currently working with this new contractor to                 Audit Opinion
implement our recommendation that complete and accurate reporting of
the USAP PP&E is ensured.

          The scope of this year’s audit was expanded to include a more
comprehensive review of NSF’s data processing system and information system controls. In accordance with
the General Accounting Office’s Federal Information System Controls Audit Manual, we assessed system
controls pertaining to financial data integrity, confidentiality, and availability. We also performed penetration
tests to identify vulnerabilities in the Foundation’s data processing environment. Our FY 1999 Management
Letter Report included several recommendations to NSF management to assure greater security over its
information. NSF management agreed to take corrective action on all recommendations and/or has offered an
acceptable explanation or alternative approach.

GPRA Monitoring

        We continue to monitor the Foundation’s efforts to comply with the Government Performance and
Results Act (GPRA). During this reporting period, we reviewed and commented on several of NSF’s latest
Performance Plan drafts. We are encouraged that NSF is increasingly using information from the GPRA
process to sharpen its performance goals and measures, and we hope that this information leads to improved
management systems to help NSF meet its Government Performance and Results Act targets.

                                                       2

NSF                           Semiannual Report Number 22 · March 2000                                      OIG
         We closely followed NSF’s efforts to develop its first Performance Report through our participation in
the Foundation’s GPRA internal working groups. We were especially interested in the activities of NSF’s
Committees of Visitors (COVs), groups of outside experts who assess the quality of process and results of
NSF programs on a 3-year cycle. The COVs are integral to NSF’s GPRA reporting, because they make
qualitative judgments on NSF’s success in meeting its outcome goals. As such, we compared the Performance
Report’s summary of the COV expert assessments with the source COV reports and found that the Perfor-
mance Report fairly represented the experts’ judgments.

        We reviewed the performance information reflected in NSF’s Accountability Report. We identified
minor classification and reporting differences between this report and the GPRA Performance Report that the
Foundation has addressed or plans to address as it refines its data quality process. Also, as part of our audit
of NSF’s financial statements, we assessed the Foundation’s internal controls for ensuring the existence and
completeness of data supporting the quantitative performance measures in the Accountability Report and
found them to be adequate. However, we did not audit the data in the Performance Report.

        We participated with representatives from other Offices of Inspector General to address GPRA issues
of common concern, such as the verification and validation of GPRA data. As a result of these discussions,
we offered NSF management suggestions for developing its data collection and measurement systems.

        NSF’s processes for managing outside expert evaluations of agency programs and the aggregation of
these evaluations into the Performance and Accountability reports are evolving. We believe our involvement is
helping the agency develop a more useful, data-driven performance assessment system.

Management Challenges

        For the third consecutive year, Congressional leaders asked Inspectors General to identify the 10 most
serious management challenges facing their agencies. In our view, the challenges facing NSF have not changed
substantially since last year.

        Maintaining a fair, effective system for reviewing proposed research and education projects is crucial
to the Foundation’s success and, accordingly, should receive perennial focus from NSF management. NSF’s
GPRA Performance Plan highlights important issues affecting NSF’s merit review system, which includes
ensuring that proposal reviewers use NSF’s review criteria and that they are open to novel ideas and/or
proposals from new investigators.

        Proposals to increase NSF’s responsibilities also pose challenges for the Foundation. NSF may be
asked to play an enhanced leadership role in coordinating interagency activities, especially in the area of
information technology research. As such, NSF requires creative approaches to meet the challenge of staffing
interagency and cross-disciplinary initiatives while, at the same time, managing the merit review of new propos-
als submitted under current programs and monitoring performance oversight of existing projects and awards.

        Project oversight of NSF’s Antarctic program is an ongoing challenge, because of the remote location
and hostile environment. NSF’s recent procurement of a new contractor to provide support to this program
will need to be closely monitored to ensure a smooth transition.


                                                       3

NSF                           Semiannual Report Number 22 · March 2000                                     OIG
         Implementation of the Chief Financial Officers Act and the Government Performance and Results Act
continue to require NSF’s attention. Although the two most recent audits of NSF’s financial statements
resulted in “clean” opinions, they identified an immaterial weakness in accounting for NSF property, plant, and
equipment used to support the U.S. Antarctic Program. The most recent audit also made management letter
report recommendations for improving the security of NSF’s computer information systems. With regard to
GPRA implementation, we believe NSF should strive to make Government Performance and Results Act
more of a tool by which to manage the Foundation.

       Maintaining high ethical standards in research and education is also vital to NSF’s mission. We believe
that NSF has effective systems in place to address alleged ethical violations in its funded community and to
acquaint NSF staff with their ethical responsibilities, especially regarding conflicts of interests. When the new
government-wide research misconduct policy is finalized, NSF will need to take steps to ensure that the
Foundation continues to treat ethical violations consistently, regardless of whether they involve research or
education projects. We are confident that NSF management will continue to focus on the major issues and
will make additional progress in addressing them.

Need to Reconsider Policy on Supplementary Funding Approval

         While performing an audit of a major NSF research project, we identified the need for the Foundation
to reconsider its policy for approving additional funding for large capital projects. Currently, the National
Science Board (NSB) has delegated authority to the Director to commit additional funds to awards that were
initially approved by the NSB. Pursuant to current NSF practice and procedure, this authority has been
further delegated to the staff level. However, given the size, importance, and complexity of these projects, we
suggested that NSF management reconsider maintaining authority for additional funds on capital project awards
at the Director’s level. NSF management agrees that the Director should be kept informed of the progress of
large capital projects, although it does not believe changing the delegation of authority in necessary to accomplish
this objective. The OIG will continue to work with NSF management in evaluating
the most appropriate procedures for ensuring proper notification of the Director on
the status of large capital projects.

LAN Contractor has Questioned Costs

         NSF contracts for various information systems’ services, including technical
support of its local area networks (LANs), revealed questioned costs. At the request
of NSF’s contracts office, we audited three contracts awarded to a LAN contractor.
Of the more than $3.1 million claimed costs reviewed, we questioned $321,559 for
indirect costs billed in excess of audited and/or final rates, and direct costs not
authorized under the terms of the contract. Among the costs inappropriately included
in the contractor’s indirect-cost pools was a $120,000 payment for a portion of an
out-of-court settlement unrelated to the NSF contracts.

        Additionally, we found a material weakness in the contractor’s contract management practices. The
contractor was unable to provide us with indirect cost and fringe-benefit plans to support its rates or written
authorizations from NSF evidencing its actions to change key terms of the contract.

                                                        4

NSF                            Semiannual Report Number 22 · March 2000                                        OIG
AUDITS INVOLVING EDUCATION
and HUMAN RESOURCES AWARDS

Northeast Education Center Claims Unallowable Costs

        We audited five NSF awards issued to a northeast, non-profit education center that designs programs
to increase the understanding of mathematics. These awards included support for broadening K-8 teachers’
knowledge of mathematics, and cross-district collaborative efforts among education and community leaders to
reform science education, develop mathematics
curriculum materials, and establish an institute for
curriculum selection and implementation in K-12
mathematics education. Of the $12.1 million in costs
claimed under these awards, we questioned $73,943.
Contrary to NSF requirements, the center charged                     Of the $12.1 million
$59,149 for food that was regularly provided at
meetings and conferences. Additionally, we                               in costs claimed
questioned $14,524 in subcontract costs that the                     under these awards,
center claimed in excess of its actual costs.
                                                                    we questioned $73,943.
        We also found significant weaknesses in the
center’s administration of awards and accounting
processes. The center was unable to provide supporting
documentation for 258 of 886 transactions sampled. Only by conducting alternative procedures were we able
to ultimately determine allowability of the costs. The center’s travel policy permitted individuals to obtain
lodging at daily rates in excess of federal rates, and did not have an adequate tracking system in place to
monitor cost sharing. While such a policy is allowable, we estimated that the center could save $59,000
through the use of the lower federal rates.

       The center has disagreed with most of the findings and we have forwarded this matter to NSF’s
Division of Contracts, Policy and Oversight for resolution.

Northeastern School District Has Material Noncompliance Issues

         We audited an Urban Systemic Initiative award issued to a Pennsylvania school district to improve the
scientific and mathematical literacy of students. Of $9.9 million in claimed costs, we questioned $403,410 for
unallowable and unsupported costs. Specifically, we questioned: $193,424 because the school district
transferred costs from an unrelated program to the NSF award without adequate supporting documentation,
$195,088 for subcontract costs in excess of actual costs, excessive salary, and fringe benefit costs, and $14,898
for overbilled indirect costs.




                                                       5

NSF                           Semiannual Report Number 22 · March 2000                                      OIG
         Material internal control weaknesses in the school district’s accounting and reporting systems were
identified. In particular, the school district was unable to report actual cost sharing to the Foundation on an
annual basis as required. Only with significant assistance from auditors, was the school district able to provide
support of its $29 million cost-sharing obligation to NSF.

        In addition, the school district lacked the financial management capability to compare budgeted award
costs with actual costs as required or to ensure its cash balances were not in excess of its cash needs. The
school district also did not maintain an adequate system of record retention and retrieval for NSF awards.

        The school district has acknowledged the validity of most of the findings and has offered restitution for
a portion of the questioned costs. All contested findings and questioned costs will be resolved by NSF’s
Division of Contracts, Policy, and Oversight.

Northeastern Education Center’s Claimed Costs Not Adequately Supported

       NSF granted five awards to a northeastern non-profit education center to develop visual technology
intended to promote the understanding, interest, and sharing of science among students and the scientific
community. Our audit of these awards questioned $277,565 of the $8.4 million in claimed costs. Inadequate
support for the center’s cost-sharing obligation accounted for $239,980 of the questioned costs. We also
questioned $31,546 charged for fringe benefits that exceeded actual costs, and $6,039 charged for food that
was inappropriately provided at meetings and conferences.

        We also identified a material non-compliance matter with NSF’s cash management requirements. The
center maintained cash balances significantly in excess of its funding needs for six quarters over a 3-year
period. As a result, it was necessary for the center to reimburse NSF $6,861 for interest earned on these
funds.

        The center established a travel policy that permitted individuals to obtain lodging at daily rates that
were sometimes significantly higher than federal rates. Based on our sample, these differences ranged from
$25 to $100 per night, and totaled $12,400. Though allowable, we recommended that the center attempt to
minimize differences with federal per diem rates to save money.

Audit Resolutions of Prior Education and Human Resources Reviews

       Western State Department of Education. In our March 1999 Semiannual Report (page 9), we
summarized the results of our review of two awards to a western state department of education. Our audit
recommended that NSF management review one of these awards to ensure that the department meets its
$8.6 million cost-sharing requirement. We also questioned amounts for indirect costs that were charged to
NSF awards at rates higher than those allowed in the award agreement.

       In response to our recommendations, the department fully met its requirement for cost sharing under
the award. Additionally, NSF management agreed that all of the questioned indirect costs were unallowable
and required the department to credit NSF $382,765.



                                                       6

NSF                           Semiannual Report Number 22 · March 2000                                      OIG
         A Northwest Municipal School District Must Adjust Future Claimed Costs. In our September
1999 Semiannual Report (page 10), we reported the results of an audit of a northwestern municipal school
district that received a 5-year, $4.2 million NSF Local Systemic Change through Teacher Enhancement
award. We reported that the school district was at-risk of not providing $1.3 million in required cost sharing
over the course of the award. We also questioned $29,499 of participant support costs claimed in excess of
amounts allowable under the award and identified another future $30,000 in potential unallowable participant
support costs, if the existing practices were not changed.

         Based on these audit results, the school district provided NSF with additional documentation evidencing
the likelihood that it will fully meet its cost-sharing obligation. Also, the school district has agreed to offset the
$29,499 in unallowable participant support costs against future unbilled costs and to adhere to NSF’s limitation
on payments to participants, thereby saving approximately $30,000 in anticipated future stipend costs.




                                                          7

NSF                             Semiannual Report Number 22 · March 2000                                         OIG
         Rendering of the New South Pole Station
         By Tom Vaughan




POLAR PROGRAM REVIEWS
South Pole Projects – Update

         The Office of Polar Programs (OPP) is in the process of transitioning the South Pole Safety and
Environmental (SPSE) and Station Modernization (SPSM) projects to the U.S. Antarctic Program’s new
support contractor. As part of our continuing participation in quarterly reviews of these projects, we assisted
the transition effort by conducting a preliminary review of how engineering and engineering-related documentation
associated with these projects is logged, distributed, and tracked by the current support contractor. With
minor exceptions, we reported to OPP that the current contractor has adequate control over project
documentation.

         We also conducted a site visit to the South Pole to view the progress of the SPSE/SM projects. To
date, the projects are on schedule and within budget. The garage/shops complex and the fuel storage facility
were completed by a winter-over construction crew and accepted by the Foundation. Construction of the
interior of the new power plant, the final SPSE project, will be completed early in FY2001 and is expected to
be accepted by NSF in January 2001 as planned.



                                                       8

NSF                           Semiannual Report Number 22 · March 2000                                      OIG
Transportation Costs in the U.S. Antarctic Program

        OPP’s support contractor is responsible for handling the transportation of cargo to and from the
Antarctic for the U.S. Antarctic Program (USAP). USAP participants include scientists, the support contractor
and federal agencies, including several units of the Department of Defense. In addition to packing and tracking
this cargo, the contractor is also responsible for shipping cargo via the least expensive means to satisfy the
delivery date requested by the USAP participant. Despite this policy, some USAP participants were bypassing
the contractor’s system and using more expensive transportation methods. As a result, OPP incurred
approximately $432,000 in unnecessary transportation costs. We also discovered that the USAP’s transportation
code was erroneously charged for approximately $35,200 in shipments.

         We recommended that OPP seek reimbursement for the erroneous charges. We also recommended
that OPP take action to advise its all USAP participants to ship only through the USAP support contractor and
to withhold payment for any shipments made contrary to this policy. OPP initiated a request for reimbursement
of the erroneous charges, and accepted some of our internal control recommendations.

Aircraft Reconfiguration

        In FY 1997, OPP began to work with a unit of the Department of Defense (DOD) and its contractor
personnel to award a contract to modify up to three of NSF’s ski-equipped aircraft. To assist OPP, we have
participated for over 2 years in some of OPP’s quarterly reviews of this aircraft modification effort.

       Specifically, we worked with OPP and the DOD unit to document and verify nearly $1 million in
program management costs incurred during fiscal years 1997 to 1999. We also evaluated the DoD unit’s
procedures for ordering and paying for services and found them to be adequate to safeguard OPP funds.
However, we noted that the initial estimate for providing program management services had been exceeded.
We suggested that OPP seek an updated and more accurate estimate. We also suggested that a detailed
accounting of the project’s financial activity and contractor progress reports on the work status of the project
be submitted to OPP periodically. These suggestions have been implemented.

Flight Operations Review Resolved

        In our September 1998 Semiannual Report (page 8), we reported the results of a review of OPP’s
transfer of Antarctic flight operations from the Navy to the New York Air National Guard. This review
questioned several line items reflected in the Guard’s proposed budget and made recommendations for reducing
other amounts.

       During this reporting period, OPP management resolved all of our recommendations, resulting in
approximately $315,700 of funds put to better use annually.




                                                       9

NSF                           Semiannual Report Number 22 · March 2000                                     OIG
ISSUES INVOLVING
RESEARCH PROJECT SUPPORT
Mid-Atlantic University Modifies Effort Certification Procedures

         Pursuant to a request from an NSF program officer, we conducted a survey of a Mid-Atlantic university’s
“Basic Science Faculty Gain-Sharing Plan.” The program officer was concerned about the gain-sharing plan’s
method of providing additional compensation to basic science faculty members who receive at least 25 percent
of their base salary from extramural sources.

         We concluded that applicable cost principles do not prohibit the adoption of such a plan. We also
verified that federal funds were not being used to fund the incentive payments that the university made under
this plan and that the plan had no impact on the level of salaries charged to NSF grants. We suggested a minor
modification to the university’s effort-certification procedures, which the university has agreed to implement.

Audit Resolutions of Prior Research Project Support Reviews

         Questioned Costs for Agile Manufacturing Sustained. In 1994, NSF and the Defense Advanced
Research Projects Agency awarded a cooperative agreement to a northeastern university to establish and
manage an industry forum for agile manufacturing. The university operated the forum for 2 years and then
transferred it to the university’s subsidiary. A 1997 audit of the $9.6 million transferred to the subsidiary, which
we reported in our March 1998 Semiannual Report (page 7), revealed $705,125 in questioned costs and a
potential shortfall of almost $9 million in cost sharing. Shortly after the release of the audit report, NSF
management undertook a technical review of the project and recommended that further federal funding be
withheld. NSF management sustained our finding of a shortfall of $7,364,637 in promised cost sharing and
$564,828 in other questioned costs, including $289,847 in indirect costs.

         Because of the magnitude of problems found with the award at the subsidiary, we audited the original
award of $15.5 million to the university. This audit, which we reported in our March 1999 Semiannual Report
(page 11), revealed $452,619 in questioned costs and over $2.6 million in unsupported costs. Based on the
results of this audit, NSF is requesting that the university repay $39,769 in unallowable costs, a majority of
which relate to payments to consultants, in excess of the NSF approved maximum rate.

         Institute Agrees With Recommendations That Will Save $499,920. In our September 1999
Semiannual Report (page 8), we reported the results of an audit of a non-profit research institute. We questioned
$85,392 in unallowable and unreasonable costs, and estimated that the government would save $499,920
over 5 years if the institute agreed to a reduction of its indirect cost rate. NSF has since required the institute
to offset $85,392 against unbilled future costs and agreed with, and will consider in its next rate review, our
recommendations related to indirect costs. Also, as a result of our recommendations, the institute submitted its
indirect-cost rate proposal for its fiscal year ended June 30, 1999, for review by NSF.




                                                        10

NSF                            Semiannual Report Number 22 · March 2000                                        OIG
                                                                Other Audit Resolutions
Research Institute
Reduces Proposed Costs
                                                            Responding to our audit of a midwestern university,
         In our September 1999 Semi-
                                                            NSF agreed that $97,418 of the university’s
annual Report (page 7), we reported on
                                                            claimed costs were unallowable and not adequately
our reviews of two Research Institutes. The
                                                            supported. NSF required the university to repay
reviews focused on strategies to decrease
                                                            $24,437 and offset $72,981 against future unbilled
NSF funding, because the institutes are
                                                            costs. NSF and the university satisfactorily
expected over time to replace some federal
                                                            resolved other compliance and internal control
funds with outside funding. We reviewed
                                                            issues.
their active awards and proposed budgets,
including one located at a large northern
state university. We recommended budget
revisions related to the proposed revenue
                                                             In our March 1999 Semiannual Report (page 14),
and inflationary estimates, the electronic
                                                             we reported that a midwestern museum charged
distribution of a newsletter and overhead
                                                             unreasonable amounts for salaries, fringe benefits,
slides, and charges for dinners and other
                                                             equipment, supplies, and related indirect costs to
refreshments. The institute agreed to
                                                             the Foundation. Subsequently, NSF reviewed
implement our recommendations in a
                                                             additional documentation provided by the museum
revised version of the proposal, resulting in
                                                             and allowed a majority of the questioned costs.
$659,205 of funds put to better use.
                                                             However, the museum must still repay $11,616,
                                                             and agreed to make adjustment to other NSF
                                                             active awards for $50,625 in disallowed costs.
An Eastern University Must Repay
NSF and Adjust Claimed Costs

         Based on the results of a previous
audit of an eastern university, NSF agreed                  In our September 1999 Semiannual Report (page
that $158,743 of the university’s claimed                   9), we reported that two organizations with NSF
costs were unallowable and not adequately                   awards involving communications and networking
supported. The Foundation required the                      had claimed costs that could not be adequately
university to repay $70,744 and offset                      supported. NSF disallowed the entire $62,821
$87,999 against future unbilled costs. NSF                  in questioned costs. The organizations were able
and the university satisfactorily resolved                  to use unbilled costs to offset $58,139 of the
other compliance and internal control                       disallowed amount, but had to repay the remaining
issues.                                                     $4,682 to the government.




                                                    11

NSF                            Semiannual Report Number 22 · March 2000                                  OIG
SUMMARY of OTHER
AUDITS of NSF AWARDS
    In addition to the reports described, we conducted three separate audits of organizations that received
four awards related to education.

•   We reviewed two NSF awards to a non-profit consortium that enables students to use advanced networking
    technologies in natural settings, and provides courses to high school teachers who use computer networking.
    Of the $4.7 million claimed under these awards, we questioned $29,885 for future distribution costs that
    lacked actual contractual commitments, and for food inappropriately provided at staff meetings and
    conferences. We also found that the consortium maintained cash balances greater that those allowed
    under federal and NSF policies, failed to maintain written agreements with all of its consultants, and had a
    travel policy permitting individuals to obtain lodging at unnecessarily high rates.

•   A western university supporting the cooperative efforts of five local universities to prepare greater numbers
    of qualified mathematics and science teachers did not effectively monitor the practices of its subrecipients.
    The university received less than half of the single audit reports performed over a 4-year period for its
    subawardees, and did not receive any of the audit management letters referred to in the reports. Two
    subawardees did not have payroll distribution systems meeting federal requirements; one university
    subawardee did not have a conflict of interests policy that complies with NSF requirements; and one
    university subawardee has not implemented policies and procedures to ensure that cost sharing is reported
    accurately to NSF.

    We questioned $27,859 out of $3.1 million in NSF funds provided. The questioned costs related to
    overbilled indirect costs, unrelated and excessive travel costs, gifts provided to presenters at a student
    symposium, and meals provided to individuals not associated with the project. The participating universities
    have agreed with our findings.

•   We audited an NSF award in support of a non-profit corporation project to improve the training methods
    and knowledge of high school teachers in particular areas of mathematics. The award also provides
    opportunities for researchers to collaborate on the same subjects. Of the $3.9 million in additional costs
    claimed under this award, we questioned $4,959 that was reimbursed for alcoholic beverages, and
    unallowable and unsupported travel costs. We also found that the awardee: did not fully meet NSF cost
    sharing reporting requirements; lacked some adequate supporting documentation; needed written accounting
    policies and procedures; and should improve its review of travel expense vouchers.




                                                      12

NSF                           Semiannual Report Number 22 · March 2000                                      OIG
Reviews of A-133 Audit Reports

         OMB Circular A-133, issued pursuant to the Single Audit Act of 1984, sets forth standards for
obtaining consistency and uniformity among federal agencies for the audit of state governments, educational
institutions, and nonprofit organizations that receive federal awards. Reports prepared by independent auditors
in accordance with this circular are referred to as A-133 audits.

        During this reporting period, our office reviewed 121 A-133 audit reports valued at $552,313,324.
Questioned costs totaling $3,181,847 were found in the audits for five institutions. An overall lack of subrecipient
monitoring was a common internal control finding. Also, a few awardees failed to submit timely reports, and
several had procurement and property systems that were not in compliance with federal regulations.

Resolutions of Prior A-133 Audits

         Northeastern Science Center has Cost-Sharing Shortfall. NSF management sustained questioned
costs of $379,383 related to a cost-sharing shortfall for a northeastern science center. The center’s A-133
audit originally identified a potential $875,104 shortfall 2 months before the expiration of the award. However,
during the resolution of this finding, NSF management found that only fifty percent of the work planned under
the award had been completed. Thus, because the total amount of the award was less than anticipated, NSF
recalculated the cost-sharing shortfall as a percentage of the actual project costs.

        Western College Charged NSF Twice. NSF management sustained questioned costs of $285,106
reported in an A-133 audit of a western college. Provided with an NSF letter of credit, the college erroneously
drew down funds twice to cover the same expenditures. The money will be offset against future costs incurred
on NSF awards.




                                                        13

NSF                            Semiannual Report Number 22 · March 2000                                        OIG
             I ntegrity
                                                                                        2000
          The Integrity section develops and coordinates our
outreach efforts, and assesses and investigates allegations of                    Highlights
wrongdoing. Our outreach efforts are essential to building
partnerships within the agency, with other federal agencies,            New Seminars
NSF awardees, and scientific communities. These partnerships            and Continued Outreach Efforts         16
                                                                                                               16
assist us in promoting education on ethical issues and resolving
integrity and efficiency matters effectively.                           When are Duplicate
                                                                        Publications Permissible?              18
                                                                                                               18
        We investigate allegations of wrongdoing involving
organizations or individuals that receive awards from, conduct
business with, or work for, NSF. In investigating these                 Misconduct Investigation
allegations we assess their seriousness and recommend                   Forwarded to the Deputy Director 19
proportionate action. When possible, we work in partnership
with agencies and awardees to resolve these issues. When                Three Findings
appropriate, the results of these investigations are referred to        by the Deputy Director                 20
the Department of Justice or other prosecutorial authorities
for criminal prosecution or civil litigation, or to NSF                 Issues Involving
management for administrative resolution.                               Civil and Criminal Allegations         21
         Our criminal and civil investigative resources focus
                                                                        Significant
on allegations of intentional diversion of NSF funds and
                                                                        Administrative Case Activity           24
material false statements in information submitted to the
Foundation. Intentional diversion of NSF funds for personal
use is a criminal act, which can be prosecuted under several            Characteristics
statutes. Investigating these allegations is a priority for our         of Cases Closed This Period            26
                                                                                                               26
office. We encourage awardees to notify NSF of any significant
problems relating to the misuse of NSF funds, because it                Focused Oversight Reviews              27
                                                                                                               27
significantly increases our ability to conduct investigations and
possibly recover funds for NSF.                                         Issues Resolved
                                                                        With Management                        29
         Our administrative cases include those addressing
allegations of misconduct in science, engineering, and                                                         33
                                                                        Statistical Tables
education, such as falsification, fabrication, and plagiarism.
Misconduct in science strikes at the core of NSF’s mission,
and is a special concern for our office.

NSF                                 Semiannual Report Number 22 · March 2000                             OIG
                                                         15
                                                Revised Outreach Seminar for
    New Seminars                                Principal Investigators and Administrators

    and Continued                                         During this period we restructured our outreach
                                                briefings based on information we gathered by working
   Outreach Efforts                             closely with researchers and university administrators. Our
                                                presentations focus on case studies that highlight features of
                                                the federal and host institutions’ misconduct-in-science poli-
       We continue to refine our                cies. Prior to the seminar, in conjunction with our sponsors,
outreach and liaison programs                   we circulate five case studies along with the federal and in-
described in previous Semiannual                stitution policies to the intended audience.
Reports.                                                  The case studies describe the facts and conclusions
       In addition to our routine               of actual misconduct cases and highlight important features
meetings with NSF divisions, we also            of the policies. Each study highlights the resolution to
                                                uniquely different allegations. The audience selects the par-
had the opportunity to discuss our
                                                ticular study in which it is most interested or finds most ap-
responsibilities with a group of new            plicable. During the discussion, the audience is prompted
Education and Human Resources                   to provide their views on the facts and resolution, seek al-
Directorate awardees.                           ternative solutions, and apply the host institution’s and fed-
       Our outreach efforts have                eral misconduct-in-science policies to the case. We piloted
improved our reviews and refined our            this approach at several institutions and discovered that it
approach to issues important to the             elicits lively audience participation and serves as an appro-
Foundation and the communities it               priate teaching vehicle.
serves. They are also becoming an
effective means of educating the                New “Ethical Dilemmas” Seminar for Students
scientific and engineering communities
about ethical issues, compliance, and                    We developed a seminar specifically designed for
program responsibilities.                       graduate students to facilitate discussions about the ethical
       We welcome invitations                   issues they will confront as they begin their scientific ca-
to present the seminars highlighted             reers. We begin by explaining the federal award process,
                                                terms and conditions governing the conduct of federally
here for your organization. If you are
                                                sponsored research, and a Principal Investigator’s (PI’s)
interested or would like more                   obligations and commitments when submitting or reviewing
information about our seminars, please          proposals, and receiving awards.
contact our Outreach Coordinator.                        We support the discussion with handouts demon-
                                                strating the award-making process and institutional and PI
Phone:   (703) 306-2100                         responsibilities. We discuss ethical dilemmas and highlight
                                                them through discussions of closed cases. We ask students
Write: National Science Foundation              to explore their solutions and reactions to these dilemmas.
       Office of Inspector General                       We would be pleased to present either seminar to
       4201 Wilson Boulevard                    administrator, faculty, or student groups. Please call for more
       Suite 1135                               information and a copy of the handouts and slides.
       Arlington, Virginia 22230
Email: oig-outreach@nsf.gov

                                                16

 NSF                       Semiannual Report Number 22 · March 2000                                  OIG
Deferral Visits and On-Site Technical Investigative Assistance

         During this reporting period we continued our practice of visiting institutions that, through the deferral
process, are investigating misconduct-in-science cases within our jurisdiction. We defer investigation when we
determine there is sufficient substance to an allegation and, at our request, the institution accepts the responsi-
bility for investigating it. The deferral does not preclude us from conducting our own independent investigation,
but affords us the opportunity to see the independent judgement of the scientific community. We rely heavily on
that judgement when deciding whether or not to recommend that NSF management make a finding of miscon-
duct. The success of our partnership with the community and institutional officials is predicated on a common
understanding of the purpose of an investigation and our role in such an investigation. When deferring a case,
we routinely visit with institutional officials and investigation committee members who will conduct the investi-
gation. We discuss the deferral process, our respective roles in the investigation, and offer our assistance in
gathering hard-to-obtain evidence.

         We are frequently asked how similar matters have been resolved, and while we refrain from discus-
sions that we believe would bias the objectivity of the committee, we do discuss and provide copies of Semi-
annual Report descriptions of previous cases we investigated and closed. We explain concepts and terms
essential to an investigation that will satisfy the institution and the federal government. We review the federal
and institution policies to highlight similarities and areas that might cause procedural difficulties. We also
provide general guidance, based on our prior experience, on investigative strategies, confidentiality, legal con-
siderations, evidence handling, and subject- and witness- interviewing issues. We offer, and have provided in
situations when committees encounter difficulties, our assistance in collecting missing evidence and interviewing
individuals so that the case may be resolved expeditiously and objectively. We’ve learned that early discus-
sions about procedural issues are helpful and improve the quality of the reports we receive and timeliness in
resolving allegations.


National and Regional Meetings and Conferences

    Our liaisons participated in a number of national and regional meetings this period. We joined represent-
atives from NSF management at Regional Grants Conferences in Colorado and Louisiana. We discussed the
newly proposed federal misconduct policy at a meeting hosted by the American Sociological Association in
Washington, DC.

        We also presented sessions on financial compliance issues and handling misconduct allegations at the
1999 Annual Meeting of the Society for Research Administrators held in Colorado. We would be pleased to
make a presentation, facilitate a discussion or serve on a panel to cover topics in which you are interested.
Please contact us to learn more about our seminars.




                                                        17

NSF                            Semiannual Report Number 22 · March 2000                                      OIG
WHEN are DUPLICATE
PUBLICATIONS PERMISSIBLE?
          As part of an investigation that closed this period ( page 25), we learned that many scientific communities
do not have clearly articulated practices for determining what is a duplicate publication and under what conditions
it is permissible. We conducted a literature review to identify publication expectation standards in the scientific
and editorial communities. Our review showed that many journal editors have more clearly defined standards
than scientific communities as to what is acceptable practice with duplicate publications, including proposed
remedies and sanctions. We found it difficult to find articulated standards in scientific disciplines, although most
scientists would probably agree that it is improper to republish and represent prior published research material
as if it was primary or original work.

        A duplicate publication, also referred to as self-plagiarism or redundant publication, is considered to
be a published paper that substantially overlaps with an author’s prior publication without reference to the
original publication or editorial permission to republish. The meaning of substantial overlap is varied, with
opinions ranging from 10 to 100 percent identical content.

         Several recent studies estimate that duplicate publications may account for as much as 15 percent of all
published papers.1 Potential effects of duplicate publications include: wasting peer reviewers’ time; adding
unnecessary papers to an already extensive body of literature; overemphasizing the importance of findings;
increasing the costs of publication for other scientists; and distorting the professional credentials of the author.
One editor commented that readers of primary journals should be able to trust that what they are reading is
original.2 Another editor said duplicate publications could hinder effective communications between scientists,
by placing an added burden on those who want to be informed, but end up wasting time by reading the same
results and interpretations a second time.3

         Our review shows that some scientists consider duplicate publications to be an issue only for papers
that are republished in primary journals (peer reviewed and archival journals). In this view, monographs
(invited short papers or conference proceedings) are excluded. Other scientists consider conference proceeding
papers to be duplicate publications, if they represent original work and they are either peer reviewed or reflect
a full published manuscript.

         Journal editors take the issue of duplicate publications very seriously and provide specific instructions
about what they consider acceptable practice. For example, many editors will not publish a duplicative paper
unless: the authors obtain approval from both journals; target different audiences for the publications; and
allow some period of time between the first and second publication. In addition, most editors require authors
to clearly indicate in the second paper that the information has been published either entirely or partially in an
earlier publication.

1. American Medical Association, Manual of Style, page 98.
2. New England Journal of Medicine, Special Report: Uniform Requirements for Manuscripts to
   Biomedical Journals, 336: 310, January 23, 1997.
3. Philip H. Abelson, Science 218: 5, December 3, 1982



                                                             18

NSF                               Semiannual Report Number 22 · March 2000                                     OIG
        Not surprisingly, journal editors recommend strong sanctions against authors who submit duplicate
publications that are not accompanied by the appropriate notifications and/or permissions. For example, some
editors recommend the circulation of a blacklist to other peer-reviewed journals identifying the offending
authors; the retraction of duplicate publications from scientific databases; and/or the exclusion of these authors
from publishing in a specific journal for a designated number of years. Editors also suggest more proactive
approaches, such as educating authors about the negative effects of these practices, and mentoring and training
for young researchers. Finally, some editors encourage decision-makers to restrict the number of publications
considered for academic promotion or proposal competition. For instance, NSF limits PIs to a maximum of
10 publications in a proposal — five related to the research project and five unrelated, thereby emphasizing the
quality of the publications over the quantity.

         Our literature review shows that editors are actively establishing various criteria for acceptable duplicate
publication. The scientific community, however, appears to have a broad range of publication practices and
concepts. We are concerned about the potential effects of the apparent disjunction between the editorial and
the scientific communities, especially on the efficiency and effectiveness of research reporting. NSF’s definition
of misconduct in science emphasizes that only those actions that seriously deviate from accepted practices
within the relevant professional community are considered misconduct. We defer the investigation of allegations
to awardee institutions who convene committees of experts to assess them. In the absence of clearly articulated
standards or expectations within the scientific community about duplicative publications, our office and expert
committees finds it difficult to assess the seriousness of such allegations. We have seen that accepted practices
can vary across disciplines, and we encourage discussion within and among the scientific and editorial communities
on this interesting issue. We offer our role as facilitators to track community opinions.

MISCONDUCT INVESTIGATION
FORWARDED to the DEPUTY DIRECTOR
Researcher Admits to Fabricating Data

          We received an allegation that a postdoctoral researcher at a Mid-Atlantic university admitted fabricating
data generated under an NSF award. The chemist voluntarily revealed the fabrication to the Principal Investigator,
a professor who was the head of the laboratory in which the researcher worked. We contacted the professor,
who confirmed the allegation and told us that the researcher fabricated the data by adjusting the controls on an
analytical device so that it generated an apparent signal even though no bona fide signal was present. In this
way, the researcher fabricated nearly all of the data in a manuscript that he and the professor submitted for
publication. The researcher planned to present these data at an upcoming meeting, and actually presented the
first figure from the manuscript at an earlier conference.

        Although the researcher had not been under suspicion, he apparently admitted to the fabrication because
he was afraid his actions would be exposed at the upcoming meeting. The researcher explained to the professor
that he fabricated the data because he felt pressure to obtain data for the project, which he thought was
necessary for his job. Due to the seriousness of the conduct, the professor, with the support of his department
chairman, immediately terminated the researcher’s employment at the university, ending his support on the
NSF award. We subsequently contacted the researcher, who confirmed the truth of the allegation of fabrication
and explained that he deeply regretted his actions.
                                                         19

NSF                             Semiannual Report Number 22 · March 2000                                       OIG
         In our view, data fabrication, which corrupts the scientific record and goes to the heart of the scientific
enterprise, is a very serious form of misconduct. The fabrication in this case involved not only a presentation at
a national conference but also a manuscript and a planned presentation. However, the relative youth and
inexperience of the researcher, who received his Ph.D. only one year before, and the voluntary admission
before the data were published, mitigated the seriousness of the misconduct. Moreover, the researcher had
already been discharged from employment. For these reasons, we recommended that NSF debar the
subject for 1 year. We believe that a debarment of this length would be proportionate to the seriousness of the
researcher’s conduct, and would adequately protect the federal interest in the integrity of work conducted
under federal awards.

THREE FINDINGS by the DEPUTY DIRECTOR
Plagiarism in Chemistry Proposal is Misconduct

         In our September 1999 Semiannual Report (page 18), we described our investigation into allegations
that an associate professor of chemistry at a southern university plagiarized materials obtained through NSF’s
peer review system, into one proposal submitted to NSF and two submitted to another federal agency. Consistent
with our recommendations, the NSF Deputy Director made a finding of misconduct in science and prohibited
the professor from participating in the NSF peer review process for 2 years. For the same period, he required
the professor to certify, and his institution to assure, that any requests for NSF funding do not contain any
plagiarized materials and that all source documents are properly cited.

Chemist Plagiarized from NSF award

         In our September 1999 Semiannual Report (page 18), we discussed the case of a chemist who
plagiarized text from another PI’s NSF award into his proposal. Consistent with our recommendation, NSF’s
Deputy Director concluded that he committed misconduct in science and sent the chemist a letter of reprimand.
He required that for the next 3 years, the chemist submit a certification to us, that to the best of his knowledge,
his documents contain no plagiarized material. He also required that the chemist ensure that an appropriate
supervisory official provide an assurance that, to the best of his or her knowledge the chemist’s work associated
with any NSF-supported publication or submission to NSF contained no plagiarized material. Additionally, he
agreed with the chemist’s offer to teach a science ethics course and asked the chemist to provide documentation
to us that students attended the course.

Plagiarism in Engineering Proposals is Misconduct

In our March 1999 Semiannual Report (page 18), we described our investigation into allegations that an
assistant professor of engineering at a midwestern university plagiarized text and a figure in three proposals
submitted to NSF and two to another federal agency. Consistent with our recommendations, NSF’s Deputy
Director concluded that the professor committed misconduct in science and required the professor to certify,
and his institution to assure, for a period of 3 years that any requests for NSF funding do not include any
plagiarized material and that all source documents are properly cited.



                                                        20

NSF                            Semiannual Report Number 22 · March 2000                                       OIG
ISSUES INVOLVING
CIVIL and CRIMINAL ALLEGATIONS
Archeologist Convicted of
Grand Theft by Embezzlement

        We received information in January 1999
 from a west coast grantee that a co-PI on a
$1.6 million award submitted falsified travel receipts for
reimbursement for foreign trips during 1997 and 1998.
Upon its initial findings, the grantee terminated the co-
PI’s employment.

        In the course of our investigation, with the
assistance of foreign language experts, accountants, and
                                                                 Using a Video Scanning Comparator, a travel
forensic examiners, we identified over 100 potential false       reciept was examined to determine falsifica-
receipts. The co-PI falsified the receipts by altering           tion. This series of three, thermal prints show
receipt amounts, misrepresenting the items purchased,            how the original receipt looked under nor-
and fabricating receipts for non-existent purchases. He          mal light, infrared reflectance, and infrared
also used the award to make personal, contractual                luminescence.
arrangements that undermined the institution’s ability to
complete the award.

        We consulted with the U.S. Attorney’s Office
and the County District Attorney’s Office, and the County
District Attorney prosecuted the case and charged the
co-PI with Grand Theft by Embezzlement of
approximately $5,000. In March 2000, the co-PI did
not contest the felony as charged and paid restitution to
the grantee. The co-PI was sentenced to 3 years of
probation, 200 hours of community service, and ordered
to pay a $210 fine. We will be forwarding information             The entry was initially 959.10 and it was later
to NSF management to initiate debarment proceedings.              changed to 1959.10. The infrared reflectance
                                                                  process shows what was added (above) and
                                                                  the luminescence process shows what was
       As a result of the co-PI’s conduct, the grantee            originally invoiced (below).
was unable to continue with the NSF award and returned
approximately $1.5 million to the Foundation.




Photos by Howard C. Rile, Jr.
Forensic Document Examiner



                                                       21

NSF                             Semiannual Report Number 22 · March 2000                               OIG
Theft and Conversion of Government Property

        During a review of credit card purchases it was discovered that an NSF employee used government
VISA credit cards to purchase items for personal use. The employee was authorized to purchase specific
items for his division with these VISA credit cards. The balances on the credit cards were paid with division
funds. After learning of these purchases, NSF placed the employee on administrative leave and referred the
matter to us for investigation.

        Our investigation revealed that the employee used the government VISA credit cards to purchase
approximately $8,000 in personal items, memberships to Internet sites, and the services of a law firm. During
our interview, the employee confessed to purchasing these items and others for his personal use and charging
them to the government credit cards.

      A search of the employee’s home resulted in the seizure of some of the illegally purchased items. The
employee was arrested and charged with theft and conversion of government property.


Scientist Sentenced to Jail Term

         In the March 1999 Semiannual Report to Congress (page 21), we reported that we led a multi-agency
investigation that resulted in a guilty plea by a computer science professor at a southern state university, to a
state charge of Abuse of Official Capacity. The professor admitted to 28 separate instances of misusing state
and federal research funds for personal businesses. The state court fined the professor, ordered payment of
restitution and probation. Based on the conviction, the Department of Defense debarred the professor for 3
years.

        In a hearing to revoke his probation, the computer scientist pled true to 26 additional instances of theft
from the university, involving copying and mailing of over 130,000 pages of material at the university’s expense
and using a university telephone card after his employment was terminated. These thefts involved altering
payment authorization forms to falsely reflect supervisory approval.

        The court accepted the computer scientist’s plea and the state felony conviction for Abuse of Official
Capacity became final. The court sentenced the professor to serve 60 days in jail and ordered him to pay
$8,000 in additional restitution to the university.




                                                       22

NSF                            Semiannual Report Number 22 · March 2000                                     OIG
Professor Returns Money to Grant and University Changes Travel Policies

        As a result of a broad review of travel expenses related to conference awards, we discovered that a
professor of mathematics at a west coast university overcharged his NSF grants for travel expenditures. We
found that the professor did not deduct from his travel vouchers subsidies from outside sources, including
payments for lodging, meals, subsistence, airline tickets, and honoraria. In addition, the professor claimed per
diem more than once for days during an extended trip.

         Throughout the investigation we worked with the university to understand how these overcharges
occurred. It became clear that university policies were conflicting and failed to provide guidance related to
foreign travel and external travel payments. For example, one policy allowed a traveler to collect a per diem
rate for lodging and meals. This method of reimbursement required only proof of travel and did not take into
consideration payments from external sources for meals, lodging, and other items. The policy did not require
travelers to deduct these external payments upon submission for reimbursement.

         During our investigation, and as a result of information exchanged between the university, the professor,
and our office, the professor voluntarily returned $1,530 to his NSF grant to compensate for his overcharges.
The university modified its travel policy to require travelers to identify and deduct external payments and
subsidies for travel from their requested travel reimbursement. In addition, the university clarified its travel
expenditure manual to ensure that travelers are informed of the proper procedures for travel reimbursement
related to foreign travel.

Computer Intrusions of the U.S. Antarctic Program

         The Office of Polar Programs (OPP) notified us that intruders accessed computer network servers at
two United States Antarctic Program (USAP) stations and the contractor’s headquarters, in July 1999. Network
administration and other information technology operations for the USAP, administered by NSF, are included
as part of the contractor’s duties.

         These intrusions could have compromised user accounts and passwords at the two USAP stations
 and allowed unauthorized access to proprietary scientific data. We were informed that the contractor spent
approximately $45,000 to investigate and correct the problems created by these intrusions. The recovered
computer logs indicate that for a period of several months, intrusions originated from multiple international
Internet Service Provider (ISP) accounts including four originating from the United
States and Canada. However, because the ISPs did not retain records beyond one month, we were
unable to trace the source of the intrusions. We are recommending several improvements to OPP
regarding incident response coordination and network security.




                                                       23

NSF                            Semiannual Report Number 22 · March 2000                                     OIG
Lack of a Conflict-of-Interests Policy at a Non-Profit Association

        Since 1995, the Foundation has required grantees with 50 or more employees to have a formal Conflict-
of-Interests (COI) policy. The authorized organizational representative (AOR) is required to certify on the
NSF proposal cover page that the institution has a COI policy. In November 1999, NSF’s Contracts, Policy
and Oversight (CPO) told us of a non-profit association’s lack of a COI policy. It suspended the association
from spending NSF grant funds until a completed COI policy had been approved by NSF’s Office of General
Counsel (OGC). After reviewing the association’s records, we concluded that the AOR, who is also a PI on
awards, falsely certified the existence of a written COI policy on several proposals. Our review, however,
found no evidence of inappropriate conflicts or unallowable costs. CPO’s suspension was lifted after OGC
approved that association’s final policy.

SIGNIFICANT ADMINISTRATIVE CASE ACTIVITY
Duplicate Proposal Submission
and Repeated Errors in Current and Pending Support Forms

        We learned that a chemical engineering professor at a west coast institution submitted an NSF proposal
that was nearly identical to a proposal he submitted to another agency, without making the required disclosures
on the NSF proposal cover page or in the Current and Pending Support form. Neither proposal was
funded. The professor told us that he had been under extreme time pressure, and did not examine these forms
very thoroughly. In our view, the professor had not sufficiently explained the failure to disclose the largely
identical proposal, so we deferred an inquiry to the professor’s institution.

         The preliminary investigating officer at the institution found that the professor relied on two administrative
assistants to fill out his Current and Pending Support form and to complete the duplicate proposal box on the
cover sheet. They prepared these forms based on previous grant applications and records that they maintained.
Although the professor had an opportunity to change these forms, he failed to undertake a thorough review or
institute a better tracking system. As a result, almost all of the 15 additional proposals examined had errors or
omissions in the Current and Pending Support section. Although there was another set of duplicate submissions
among these proposals, only one was funded. Accordingly, there was no issue of receipt of duplicate funding.

        The preliminary investigating officer believed that the professor’s actions were errors, that the individual
errors were not committed knowingly, and that the professor was not trying to hide attempts to receive duplicate
funding. However, the preliminary investigating officer concluded that the professor knowingly adopted a
faulty procedure. Based on the report of the preliminary investigating officer, the Chancellor censured the
professor, and required that for the next 3 years, all of the professor’s proposals be certified by the Dean.

        We agreed that the professor’s procedure was unacceptable, but concluded he negligently submitted
undisclosed duplicative proposals. The professor has apologized and undertaken to improve the accuracy of
his submissions. Accordingly, we concluded that the Chancellor’s actions were sufficient to protect the
government’s interest in ensuring that the professor’s future Current and Pending Support sections are accurate
and that duplicative proposals are not submitted without disclosure.


                                                         24

NSF                             Semiannual Report Number 22 · March 2000                                         OIG
Duplicate Publications Determined not to be Misconduct in Science

         We discovered that an NSF-funded engineer at an eastern university published essentially identical
manuscripts in two peer-reviewed journals. We later determined that he published eight sets of papers with
similar overlaps, with one set including submissions to four different journals. We contacted the subject about
the duplicate publications, and, because we found his explanation to be unsatisfactory, referred the investigation
to his university.

        The university’s committee considered his alleged duplicate publications to exemplify two practices:
(1) publishing as conference proceedings, materials that had previously been published in a refereed, archival
journal; and (2) publishing as first-tier, archival, peer-reviewed journal papers, materials that were published
previously in a similar quality journal. The committee members described his first practice as in “the fringe area
of acceptable practice[s].” In contrast, they found the second practice went “beyond the acceptable standards
of scientific practice within the [PI’s] field.” They found two sets of publications that exemplified this second
practice.

        Ultimately, the committee members concluded that the subject’s actions did not rise to the level of
misconduct in science. They described the subject’s actions regarding the second group of publications as an
“isolated lapse in judgement,” and determined that he did not intentionally act to increase the number of his
publications. They also concluded that his practice did not distort his publication record or the perception of
his research abilities. While we disagreed with this specific conclusion, we also accepted the committee’s
overall view that his practices, although questionable, were not considered misconduct in science within his
community.




                                                       25

NSF                            Semiannual Report Number 22 · March 2000                                     OIG
CHARACTERISTICS
of CASES CLOSED THIS PERIOD
Summary of Administrative Investigative Activity

         We receive allegations of misconduct from a variety of sources, including: merit reviewers, NSF staff,
scientists, engineers, graduate students, and institutional officials. We review all allegations, including anonymous
allegations, and we protect the identities of those involved.

        We encourage you to contact us to discuss questions or problems you may have. If the issue you
present is more appropriately handled by NSF management, we will put you in contact with the appropriate
NSF staff. We usually receive written (reviews, letters, e-mails) and oral allegations (by telephone or in person)
in which people provide their identities. We know that some people wish to alert us to problems without
identifying themselves. To assist them, we recently established an anonymous, toll-free hotline number
(1-800-428-2189).



                                                Contact Our Office
                                      Internet:             www.nsf.gov/oig/oig.htm
                                      E-mail:              oig@nsf.gov
                                      Phone:               703-306-2100
                                      Anonymously:         1-800-428-2189

                                      or Write:            National Science Foundation
                                                            Office of Inspector General
                                                           4201 Wilson Boulevard
                                                           Suite 1135
                                                           Arlington, Virginia 22230



         We reviewed 82 matters this period. We considered 59 administrative and 23 civil/criminal matters.
Of the 59 administrative matters, 22 were concerns best suited for resolution by NSF management or misconduct
allegations lacking sufficient information to allow us to proceed. One of our goals is to process cases in a timely
manner. This past year, we developed case management systems that allow us to carefully monitor the progress
and age of our cases, and ensure their timely resolution. We closed 37 misconduct cases this period. Twenty-
nine of these cases were closed at the inquiry stage. Of the remaining 8 cases, 4 were investigations in which
awardees concluded no misconduct occurred and we concurred; 3 were investigations in which awardees
found that the actions were misconduct and we forwarded reports to the Deputy Director, who took action
generally consistent with our recommendations. Finally, 1 case was an investigation in which an awardee
censured the subject for behavior that, although not a best practice, was not, in our view, misconduct in science
(see page 44).



                                                        26

NSF                             Semiannual Report Number 22 · March 2000                                       OIG
        The 34 cases were closed this period with no recommendation for a finding of misconduct involved
subjects at public colleges and universities (22 cases), private colleges and universities (7 cases), government
agencies (3 cases), private industry (1 case), and a foreign institution (1 case).

         The primary allegations in the 34 cases included plagiarism (11 cases), false certifications or other
misrepresentations (7 cases), breach of the confidentiality of peer review (2 cases), retaliation against a good-
faith whistleblower (2 cases), duplicate proposal submission (2 cases), failure to share equipment or data (2
cases), violations of specific biological research regulations (2 cases), and others (6 cases), such as data
falsification, abuse of colleague, discrimination, and duplicate publications.

        Areas of expertise of the subjects in these cases included engineering, biology, chemistry, economics,
education, geology, materials science, mathematics, and physics. As part of our information gathering, we
contacted the subjects in 15 of these cases and we requested clarifications of issues from experts for four of
these cases. During this period, we referred 6 cases for inquiry or investigation to awardees.

        We closed 23 cases that included allegations of diversion of funds (7), false statements (2), theft of
NSF-funded equipment (2), and computer intrusion (1). Eleven of the cases described issues that we referred
to NSF management for resolution. This period we also focused on computer intrusions and computer
investigative training. A majority of our criminal/civil investigative cases that remain open at the end of this
period are related to diversion of funds or false statements. Of our 35 active cases, 15 cases were referred to
Department of Justice or state prosecutorial authorities. Eight of these involve the diversion of funds and 7
involve false statements.

FOCUSED OVERSIGHT REVIEWS
Two Focused Oversight Reviews Completed This Period
        We reviewed the Small Grants for Exploratory Research (SGER) program by comparing four of
NSF’s requirements for these awards with a random sample of award jackets. We also reviewed the reliability
of publication claims made by PIs in their NSF Final Project Reports from a random sample of award jackets.
Our reviews concluded that SGER proposals are prepared with a high level of integrity and care. In addition
publication claims by PIs are accurate and NSF can rely on them as measures of productivity.

SGER Award Assessment

        We reviewed selected SGER awards for consistency with selected program requirements. SGER
awards are for “small-scale, exploratory, high-risk research” and are not subject to external merit review. Our
review, which was conducted by a multi-disciplinary team of auditors, scientists and attorneys, included an
assessment of 97 award jackets in four general categories – scope and budget, potential duplication of existing
research awards, accuracy of credential and publication information, and conflict of interests.




                                                       27

NSF                            Semiannual Report Number 22 · March 2000                                    OIG
        We evaluated the awards to determine if the proposed research met the criteria set forth in the Grant
Proposal Guide (e.g., risky, time-sensitive, or exploratory). Only a few awards seemed outside of the established
scope of the program. Further, none of the SGER awards appeared to overlap with the PIs’ regular awards.
We noted that seven PIs overspent their travel budgets by more than 25 percent, and three PIs spent travel
funds when no travel budget was authorized. However, we believe these discrepancies arose as a consequence
of the general nature of SGER projects, i.e., short-planning periods and considerable uncertainties in project
scope because of the innovative nature of the program.

         Of the 97 awards reviewed, only four contained references to publications that could not be verified.
These publications were either from relatively obscure journals or contained typographical errors in journal
titles. Ten of the doctoral degrees could not be verified. However these degrees were from foreign universities
of which it was difficult to obtain verification. We found only one instance where a PI and program officer co-
authored a publication prior to the award. We found no conflict in that instance because of the amount of time
that had passed prior to the award.
       In summary, we found that the SGER awards were well within the scope and intent of the SGER
funding initiative and that these proposals appear to have been prepared with a high level of integrity and care.

Verification of PI Publications on Final Reports

        In our second review, we tested the accuracy of publication claims listed by PIs on Final Project
Reports. Because these claims represent one outcome measure for awards, their reliability is important as part
of the database available to NSF to assess the effectiveness of its awards. We requested a random sample of
195 award jackets from a population of 8,116 closed awards for a selected year. Of the requested jackets,
156 were received and reviewed.

         We found numerous minor errors within the citations, requiring us to expend considerable effort to
verify the claims. In a few instances we were only able to verify the claim by contacting the PI. We believe
these errors arise through carelessness and unavoidable inaccuracies created by the delay in the manuscript
submission, acceptance, and publication process. Despite these errors, we ultimately verified the existence of
all the journal publications listed in the Final Project Reports in these jackets. Based on the results of our
statistical sample, we concluded that PIs provide accurate information in their final reports. NSF can only rely
on this information when making decisions about funding and evaluating productivity under awards.

         An interesting side issue arose during our review. About 20 percent of the jackets initially requested
were not retrievable over the duration of the study and we designated them as lost. If this lost jacket rate is
correct, this would represent a significant control problem. We are currently assessing this matter. We shared
our concerns about the apparent high rate of missing or lost jackets with NSF management. NSF management
told us that the files we were seeking probably exist, but, because of various problems with the oversight of
archiving these jackets, they can not be found. We are continuing to work with NSF management to resolve
this matter.




                                                       28

NSF                            Semiannual Report Number 22 · March 2000                                    OIG
ISSUES RESOLVED WITH MANAGEMENT
         We occasionally learn of matters that may arise from misunderstandings or raise operational issues that
are best resolved by working with NSF research and administrative divisions. This section describes four such
issues in which we worked with NSF management this period.

Redaction of Reviews Submitted via NSF FastLane
         To assess the scientific merits of the proposals it evaluates, NSF frequently sends them to scientists or
other experts outside the agency to review. Sometimes reviewers include allegations of misconduct as part of
their reviews. It is NSF’s policy
that program managers bring
such allegations to our attention.
NSF’s decision about which
proposals to fund are to be
based on the proposal’s
technical merits, not on
unsubstantiated allegations of
misconduct. In keeping with
this policy, we typically remove
(redact) such allegations from
otherwise substantive and
usable merit reviews. Our
office separately assesses the
merits of the allegations.

         NSF’s new electronic
jacket system (FastLane)
presents challenges in
maintaining the separation of                 FastLane is an interactive real-time system used to conduct NSF
programmatic decision-making                  business over the Internet. FastLane is for official NSF use only.
from allegation processing. We
worked with the Division of
Information Systems and the Office of the General Council to develop ways to remove such allegations from
the electronic reviews and preserve the original record in our files. After the electronic redaction is completed,
we replace the original review in the electronic jacket with a redacted copy, storing the original in a secure
database in our office. This process preserves the original record and allows NSF to focus on review of the
technical merits of the proposal.




                                                       29

NSF                            Semiannual Report Number 22 · March 2000                                     OIG
Other FastLane Work

        Two of our recent cases illustrate some of the additional challenges we face in adapting our procedures
for FastLane. Although allegations of misconduct usually appear in proposal reviews or independent letters to
NSF, in one instance, a PI made plagiarism allegations in two different sections of his proposal. Given FastLane’s
current configuration, we were unable to redact these allegations from the proposal without destroying the
permanent record. We are working hard with NSF’s DIS and the FastLane committee to remedy this situation.

        In another instance, a program officer informed us that a PI submitted identical proposals to different
divisions without informing NSF that he had done so. We learned that the PI had submitted his proposal via
FastLane and later resubmitted it to correct a formatting problem. FastLane treated the resubmission as an
independent proposal. Because it was sent to a different division for review, it appeared as if the PI had
submitted the same proposal to different programs in an attempt to increase his funding opportunities without
disclosing the duplicate submission on the cover page.

        Again, we are working with NSF’s DIS in order to prevent a repeat of this incident.

Recommendation to Change Award Letter

         We received an allegation that a biologist at a midwestern university violated federal regulations by
failing on several occasions, to obtain necessary import/export and endangered species permits. The U.S.
Fish and Wildlife Service entered into a settlement agreement with the subject, and he was required to pay a
significant fine, publish an article on import/export permits, perform 50 hours of community service, and refrain
from participating in any specimen collection projects for one year. We considered these actions to be adequate
to protect the federal interest and closed the case.

         We remained concerned about possible negative repercussions to the Foundation created by the PI’s
failure to obtain proper permits. Although it is unusual to recommend NSF action based on one case, we
decided that the potential negative effects to conservation efforts and international research relations justified
doing so. In cooperation with the Directorate for Biological Sciences, we will be suggesting that NSF include
language in award letters to remind awardees and PIs of their responsibilities for the timely acquisition of permits,
licenses or other necessary approvals associated with specimen collection activities. In addition, we will propose
that NSF request that PIs include a brief summary of all authorizations acquired for collection efforts in their final
project reports.




                                                         30

NSF                             Semiannual Report Number 22 · March 2000                                        OIG
Change to NSF’s Web-based Award Abstracts

         We received a complaint that abstracts available on NSF’s website fail to acknowledge the authorship
contributions of some PIs. The complainant indicated that these abstracts list the names of current PIs, but not
those of former PIs who, although no longer associated with the funded projects, originally wrote and submitted
the successful proposals. In cooperation with NSF management, we are working to revise the web-based
abstracts to include the names of both current and former PIs where appropriate. We believe this change will
provide credit to original authors and provide the scientific community with more accurate award information.


Resolving Complaints About an NSF Survey

         We were notified of two complaints from consumer protection organizations regarding allegedly intrusive
telephone calls related to an NSF survey. An NSF division contracts with an outside firm to administer this
survey. After learning how the NSF division handled its complaints, we were able to aid in changing NSF’s
procedure to ensure that survey respondents know how to notify NSF directly of their concerns. The program
official responsible for the survey said the division was “glad to have a partner” in resolving the complaints.




                                                      31

NSF                           Semiannual Report Number 22 · March 2000                                    OIG
      S tatistical                                      Data
                                                           2000
                       Highlights

         Audit Reports Issued With Recommendations
         for Better Use of Funds                           34
                                                           34

         Audit Reports Issued With Questioned Costs        35
                                                           35

         Additional Performance Measures                   36
                                                           36

         Audit Reports Involving Cost-Sharing Shortfalls   37
                                                           37

         Status of Systemic Recommendations
         That Involve Internal NSF Management              38
                                                           38

         List of Reports                                   39
                                                           39

         Audit Reports With
         Outstanding Management Decisions                  42
                                                           42

         Investigative Activity and Statistics             43
                                                           43

         Misconduct Case Activity
         and Assurances/Certifications Received            44
                                                           44

         Glossary                                          45
                                                           45




NSF          Semiannual Report Number 22 · March 2000           OIG
                                 33
AUDIT REPORTS
ISSUED WITH RECOMMENDATIONS
for BETTER use of FUNDS
                                                                        Dollar Value

A.    For which no management decision has been made by the               4,495,890
      commencement of the reporting period


B.    Recommendations that were issued during the reporting period          431,800
      (these were issued in 1 report)


C.    Adjustments related to prior recommendations                                0


Subtotal of A+B+C                                                         4,927,690


D.    For which a management decision was made during the                 4,827,690
      reporting period


      (i) dollar value of management decisions that were consistent       3,199,575
          with OIG recommendations


      (ii) dollar value of recommendations that were not agreed           1,628,115
           to by management


E.    For which no management decision had been made by the end of          100,000
      the reporting period


For which no management decision was made within 6 months of issuance       100,000




                                              34

NSF                       Semiannual Report Number 22 · March 2000              OIG
AUDIT REPORTS
ISSUED WITH QUESTIONED COSTS

                                                        Number           Questioned      Unsupported
                                                       of Reports         Costs             Costs



A.         For which no management decision has               27             5,047,055       1,196,368
           been made by the commencement of the
           reporting period


B.         That were issued during the reporting              12             4,320,997        294,524
           period


C.         Adjustment related to prior recommendations         2             7,744,020                 0


Subtotal of A+B+C                                             41         17,112,072          1,490,892


D.         For which a management decision was                30         15,089,322          1,175,905
           made during the reporting period


           (i) dollar value of disallowed costs           N/A                9,805,213            N/A


           (ii) dollar value of costs not disallowed      N/A                5,284,109            N/A


E.         For which no management decision had               11             2,022,750        314,987
           been made by the end of the reporting
           period


For which no management decision was made                      2              839,795          20,463
within 6 months of issuance



                                                         35

     NSF                          Semiannual Report Number 22 · March 2000                     OIG
ADDITIONAL
PERFORMANCE MEASURES
        As required by the Inspector General Act of 1978, we provide tables in each Semiannual
Report to the Congress that give statistical information on work conducted by our audit and
investigation units.
        Tables that provide statistics concerning these required performance measures are on pages
43 and 44. The General Accounting Office and OMB suggested that Offices of Inspector General
develop additional performance measures that provide information about their activities. As a
result, we developed two additional performance measures to provide additional insights about the
work of our office. The two additional measures are “Cost-Sharing Shortfalls” and “Systemic
Recommendations.”

        COST-SHARING SHORTFALLS—NSF seeks to leverage its resources by acting as a
catalyst, promoting partnerships, and, in some cases, obligating grantees to contribute substantial
non-federal resources to a project. When NSF award documents require substantial cost sharing,
we seek to determine whether grantees are in fact providing promised resources from non-federal
sources.

        We divide cost-sharing shortfalls into two categories. Shortfalls occurring during the life of
a project indicate that the grantee may not be able to provide all promised resources from non-
federal sources before completing the project. Shortfalls that remain when a project is complete
demonstrate that a grantee has in fact not met cost-sharing obligations; these findings result in
formal questioned costs. The table on page 37 provides statistical information about shortfalls
occurring during the course of a project and at the completion of the project.

        SYSTEMIC RECOMMENDATIONS—OIG staff members regularly review NSF’s
internal operations. These reviews often result in systemic recommendations that are designed to
improve the economy and efficiency of NSF operations.

         We routinely track these systemic recommendations and report to NSF’s Director and
Deputy Director quarterly about the status of our recommendations. The table on page 38 provides
statistical information about the status of all systemic recommendations that involve NSF’s internal
operations.




                                                 36

NSF                        Semiannual Report Number 22 · March 2000                               OIG
AUDIT REPORTS
INVOLVING COST-SHARING SHORTFALLS


                                             Number    Cost-Sharing          At Risk of         Cost-Sharing
                                               of       Promised            Cost-Sharing        Shortfalls at
                                             Reports                         Shortfall/       Completion of the
                                                                          (Ongoing Project)       Project

A. Reports with monetary findings for
   which no management decision
   has been made by the beginning of
   the reporting period                          8        20,064,199            15,819,206           783,963

B. Reports with monetary findings
   that were issued during the
   reporting period                              4          660,500               615,955           3,089,980

C. Adjustments related to prior
   recommendations                              N/A                   0         (7,744,020)         7,744,020

Total of Reports With Cost-Sharing
Findings (A+B+C)                                12        20,724,699            8,691,141          11,617,963

D. For which a management decision
   was made during the reporting period          9

    1. Dollar value of cost-sharing short-
       fall that grantee agreed to provide      N/A       19,737,638            8,071,997           7,825,112
    2. Dollar value of cost-sharing short-
       fall that management waived              N/A                   0                 0           3,552,871


E. Reports with monetary findings for
   which no management decision has
   been made by the end of the
   reporting period                              3          987,061               619,144             239,980




                                                           37

      NSF                            Semiannual Report Number 22 · March 2000                           OIG
STATUS of SYSTEMIC RECOMMENDATIONS
THAT INVOLVE INTERNAL NSF MANAGEMENT

Open Recommendations
          Recommendations Open at the Beginning
          of the Reporting Period                                                         1
          New Recommendations Made During
          Reporting Period                                                              24

          Total Recommendations to be Addressed                                         25


Management Resolution of Recommendations1
          Awaiting Resolution                                                            1
          Resolved Consistent With OIG Recommendations                                  24


Management Decision That No Action is Required                                            0


Final Action on OIG Recommendations
          Final Action Completed                                                        24
          Recommendations Open at End of Period                                          1


Aging of Open Recommendations
          Awaiting Management Resolution:
                 0 through 6 Months                                                       1
                 7 through 12 Months                                                      0
                 more than 12 Months                                                      0


Awaiting Final Action After Resolution2
                  0 through 6 Months                                                      0
                  7 through 12 Months                                                     0
                  13 through 18 Months                                                    0

1
    “Management Resolution” occurs when management completes its evaluation of an OIG recommendation and issues
     its official response identifying the specific action that will be implemented in response to the recommendation.
2
    “Final Action” occurs when management has completed all actions it decided are appropriate to address an
     OIG recommendation.

                                                         38

NSF                              Semiannual Report Number 22 · March 2000                                        OIG
LIST of REPORTS
NSF and CPA Performed Reviews


Report                                 Questioned    Unsupported    Better Use Cost Sharing
Number    Subject                      Costs         Costs          of Funds   At-Risk



00-1002   Consortium                       29,885          29,885           0      219,455
00-1003   Education Center                 73,943          59,419           0            0
00-1004   Research Centers                277,565          11,796           0            0
00-1005   State University                 27,859               0           0            0
00-1006   Institute                         4,929               0           0            0
00-1007   School District                 403,410         193,424           0            0
00-1008   For-Profit Company              321,559               0           0            0
00-2001   Support Contractor                    0               0     431,800            0
00-2002   Financial Statements                  0               0           0            0
00-2003   Management Letter                     0               0           0            0
00-2004   Procedures                            0               0           0            0
00-2005   Procedures Report                     0               0           0            0
00-6001   Community College                     0               0           0            0
00-6002   School of Medicine                    0               0           0            0
00-6003   Air Force Base                        0               0           0            0
00-6004   Oceanographic Institute               0               0           0            0
00-6005   Research Corporation                  0               0           0            0
00-6006   Radio Observatory                     0               0           0            0
00-6007   Project                               0               0           0            0

          Total                         1,139,150         294,524     431,800      219,455




                                            39

NSF                   Semiannual Report Number 22 · March 2000                       OIG
LIST of REPORTS
                          NSF-Cognizant Reports



Report                                 Questioned                Unsupported   Cost Sharing
Number    Subject                      Costs                     Costs         At-Risk

00-4001   Museum                                 0                        0               0
00-4002   Observatory                            0                        0               0
00-4003   Behavioral Sciences Center         2,936                        0               0
00-4004   Research                               0                        0               0
00-4005   Museum                                 0                        0               0
00-4006   Communications Institute               0                        0               0
00-4007   Museum                                 0                        0               0
00-4008   Museum                                 0                        0               0
00-4009   Statistical Institute             42,780                        0               0
99-4010   Ecosystem Institute                    0                        0               0

          Total                             45,716                        0               0




                                          40

NSF                   Semiannual Report Number 22 · March 2000                      OIG
LIST of REPORTS


                        Other Federal Audits

Report                                    Questioned          Unsupported   Cost Sharing
Number    Subject                         Costs                     Costs   At-Risk

00-5012   University                                0              0            396,500
00-5018   School District                   2,850,000              0                  0
00-5019   Mining & Technology Institute       285,106              0                  0
00-5025   University                            1,025              0                  0


          Total                             3,136,131              0            396,500




                                             41

NSF                    Semiannual Report Number 22 · March 2000                  OIG
AUDIT REPORTS
WITH OUTSTANDING MANAGEMENT DECISIONS
       This section identifies audit reports involving questioned costs, funds put to better use, and
cost sharing at risk where management had not made a final decision on the corrective action
necessary for report resolution within 6 months of the report’s issue date. At the end of the report-
ing period, there were 2 audit reports with questioned costs, 1 report with recommendations for
funds to be put to better use, and 1 item involving cost sharing at risk. The status of systemic
recommendations that involve internal NSF management are described on page 38.


Report                                                         Date Report           Dollar
Number            Subject                                      Issued                Value     Status

Items Involving Questioned Costs
97-2105          Technology Institute                          03/31/97              641,129     1
99-1009          For-Profit Company                            09/27/99              198,666     1

                 Total                                                               839,795



Items Involving Funds Put to Better Use
99-1033          Math Institute                                09/17/99              100,000     1

                 Total                                                               100,000



Items Involving Cost Sharing at Risk

99-1009          For-Profit Company                            09/27/99              399,689            1

                 Total                                                               399,689




Status Code
1 = Resolution is progressing with final action expected in next reporting period.




                                                          42

NSF                              Semiannual Report Number 22 · March 2000                        OIG
INVESTIGATIVE ACTIVITY and STATISTICS


Investigative Activity                                               Investigative Statistics

Active Cases From Previous                                           New Referrals                                 6
Reporting Period                           39
                                                                     Referrals From Previous
New Allegations                            19                        Reporting Period                              6

                                                                     Prosecutorial Declinations                    4
Total Cases                                58
                                                                     Indictments (including
                                                                     criminal complaints)                          2

Cases Closed After                                                   Criminal Convictions/Pleas                    1
Preliminary Assessments                    2
                                                                     Civil Settlements                             0
Cases Closed After
Inquiry/Investigation                     21                         Civil Complaints                              0

Total Cases Closed                        23                         Administrative Actions                        5

Active Cases                              35                         Investigative Recoveries*         $1,501,530




 *Investigative recoveries comprise civil penalties, criminal fines, and restitutions as well as specific cost
  savings for the government.




                                                         43

NSF                            Semiannual Report Number 22 · March 2000                                          OIG
MISCONDUCT CASE ACTIVITY and
ASSURANCE/CERTIFICATIONS RECEIVED

                                             Misconduct Case Activity

                                                                     FY 1999                                FY 2000
                                                                     Last Half                              First Half

Active Cases From Prior Period                                           55                                      49
Received During Period                                                   31                                      25
Closed Out During Period                                                 37                                      37
In-Process at End of Period                                              49                                      37

Cases Forwarded to the Office of the
Director During Period for Adjudication                                   4                                        1

Cases Reported in Prior Periods With No
Adjudication by the Office of the Director                                1*                                       2**



*This case is described in our March 1999 Semiannual Report, page 18.

**These cases are described in our September 1999 Semiannual Report, pages 17-18 and 19-21.




                                         Assurances and Certifications*


Number of Cases Requiring Assurances at End of Period                                              4
Number of Cases Requiring Certifications at End of Period                                          6
Assurances Received During This Period                                                             0
Certifications Received During This Period                                                         0
Number of Debarments in Effect at the End of Period                                                2


*NSF accompanies some findings of misconduct in science with a certification and/or assurance requirement. For a specified
period, the subject must confidentially submit to the Associate Inspector General for Scientific Integrity a personal certification
and/or institutional assurance that any newly submitted NSF proposal does not contain anything that violates NSF’s regulation on
misconduct in science and engineering. These certifications and assurances remain in OIG and are not known to, or available to,
NSF program officials.



                                                                44

NSF                                 Semiannual Report Number 22 · March 2000                                                    OIG
GLOSSARY
Funds to be put to Better use

       Funds the Office of Inspector General has identified in an audit recommendation that
could be used more efficiently by reducing outlays, deobligating funds, avoiding unnecessary
expenditures, or taking other efficiency measures.

  1998
Questioned Cost

       A cost resulting from an alleged violation of law, regulation, or the terms and conditions of
the grant, cooperative agreement, or other document governing the expenditure of funds. A cost
can also be “questioned” because it is not supported by adequate documentation or because funds
have been used for a purpose that appears to be unnecessary or unreasonable.


NSF’s Definition of Misconduct in Science and Engineering

       Fabrication, falsification, plagiarism, or other serious deviation from accepted practices in
proposing, carrying out, or reporting results from activities funded by NSF; or retaliation of any
kind against a person who reported or provided information about suspected or alleged misconduct
and who has not acted in bad faith.




                                                  45

NSF                        Semiannual Report Number 22 · March 2000                              OIG
For additional copies or information write

       Office of Inspector General
       National Science Foundation
    4201 Wilson Boulevard, Suite 1135
          Arlington, VA 22230

                   call

             (703) 306-2100

    our report is available on the web

www.nsf.gov/cgi-bin/getpub?oigmarch2000

                  use our
          electronic mail hotline

               oig@nsf.gov

                or call
           anonymous hotline

             1-800-428-2189

        for outreach presentations
                E-Mail Us

          oig-outreach@nsf.gov
Office of Inspector General   March
National Science Foundation    2000
